Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 REVIEW AND ADJUSTMENT OF
      SUPPORT ORDERS
       EXPERIENCE IN TEN STATES




                   JUNE GIBBS BROWN
                    Inspector General

                       March 1999
                      OEI-05-98-00102
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's (regional office) prepared this report under the direction of William Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                  HEADQUARTERS

Joe Penkrot, Project Leader                             Alan Levine, Program Specialist

Victoria Jacobs, Lead Analyst                           Linda Hall, Program Specialist

                                                        Rada Spencer, Program Specialist




        To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                           TA B L E                      OF             CONTENTS

                                                                                                                                  PAGE



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


STATES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


 ! IOWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


 ! MASSACHUSETTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


 ! MICHIGAN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


 ! MINNESOTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


 ! MISSISSIPPI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


 ! NEVADA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


 ! NEW YORK . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


 ! OKLAHOMA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


 ! OREGON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


 ! VERMONT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                              INTRODUCTION

PURPOSE

To describe the various approaches used to review and adjust child support orders in 10 States to
increase States’ knowledge of the options exercised by other States in order to better inform State
policy matters.

BACKGROUND

This study complements our report, Review and Adjustment of Support Orders,
OEI-05-98-00100. These studies describe how States responded to the Personal Responsibility
and Work Opportunities Reconciliation Act of 1996. Previously, States were required to review
all public assistance (IV-A) child support orders at least every 3 years to determine if the court
order was in line with State child support guidelines. The Act gave State Child Support
Enforcement Agencies (called IV-D agencies) three options relating to reviewing child support
orders. States could continue the triennial review, use a limited automated review using State tax
or wage data to determine if an adjustment is warranted, or they could use a Cost-of-Living
Adjustment (COLA) to adjust orders periodically without reviews.

Many States are still determining which methods they will use to review and adjust child support
orders.

Child Support Enforcement agencies (called IV-D agencies) are required to notify all parents,
every 3 years, of their rights to request reviews of their child support orders. The IV-D agencies
must conduct a parent-requested review if none has been performed within the last 3 years.


SCOPE AND METHODOLOGY

In this report, we describe the processes at the local level in 10 States we visited - Iowa,
Massachusetts, Michigan, Minnesota, Mississippi, New York, Nevada, Oklahoma, Oregon and
Vermont. We selected these States to represent a mix of geographic locations, approaches to
review and adjustment and type of administration. In each State, we met with State IV-D staff
responsible for review and adjustment and made visits to two IV-D offices.1 At each local office
we interviewed a manager and caseworker. In total, we spoke with 19 managers and 19
caseworkers. We conducted our field visits between January and April 1998 and made follow-up
calls to verify information through September 1998.

This report does not represent a comprehensive description of all of the processes States use.


       1	
               In Minnesota, we visited one local office since this State was visited during the pre-inspection
               phase of our study.

                                              )))))))))))
                                                   1
Instead it features 10 States’ approaches in reviewing and adjusting child support orders, how
they notify parents of their right to have court orders reviewed, how they pursue medical support
in these cases, and unique aspects of their review and adjustment strategies.

Our review was conducted in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                         )))))))))))
                                              2
                                          IOWA

The Iowa Department Of Human Services administers Iowa’s child support enforcement program
through 18 State supervised field offices. Iowa’s IV-D caseload as of April 1998 was 157,509
cases. Nearly 30 percent (43,946) of these cases were IV-A cases. Iowa does not have figures
on the number of cases it has reviewed at IV-D initiation.

Iowa no longer conducts triennial reviews of all public assistance cases. However, Iowa does
initiate reviews of cases through other systematic methods. In 1998, Iowa began using their
Med-Sum system to review cases with the potential to add medical support and an administrative
modification process to modify cases under certain circumstances. Iowa also may conduct a one-
time clean-up review of all IV-D cases over a 2 year period. Under this one-time review project,
their system will scan the entire caseload and select all cases for review which have not been
reviewed in the last 3 years. This project depends on funding from the State legislature.

Iowa’s Review and Adjustment Process

The Med-Sum System - Iowa uses the Med-Sum system to review cases which have the potential
to add medical support. The Med-Sum system runs a monthly check on all IV-D cases which do
not have medical support provided in the court order. The system then checks to see if these
cases have the potential to add medical support (i.e., if the system indicates there is a verified
employer for the noncustodial parent ). If a verified employer is identified on a case, the system
generates a notice to the employer inquiring about the non-custodial parent’s health insurance
coverage and wages. The system also alerts the medical support worker that the case has the
potential to add medical support. The medical worker then pursues the case to see if medical
coverage is available. If it is available, the medical worker refers the case to a review worker to
conduct a full review. If medical coverage is not available, the case will not be referred and no
review takes place.

If a case is referred for review, the review worker sends financial statements to both parents to
solicit income information. The review worker also has access to an automated interface with the
State’s workforce development agency to obtain income information on a case. The review
worker inputs all of the collected information onto a software application which computes
whether the order meets the State’s threshold for adjustment, a 20 percent change in the order.

The review worker sends a notice of decision with the proposed adjustment to both parents,
allowing them 30 days to contest. Parents must contest the proposed adjustment in writing and
supply any information that justifies their protest to their caseworker. The order may then be
re-figured based on new information. If a parent chooses to contest a proposed adjustment after
an initial challenge, they can pursue it in court. A judge will hear the case and make a final
determination of adjustment. If the parents do not respond to the initial notice of decision, the
caseworker forwards the order to a judge for signature and the adjustment is final.

Caseworkers always check for medical support availability on reviews initiated through the

                                         )))))))))))
                                              3
Med-Sum system since medical support availability is the driving force of review initiation in this
system. After medical support is attached to an order, it is no longer included in the
Med-Sum system and is therefore no longer subject to a routine periodic review at the State’s
initiation.

Administrative Modification - In addition to the Med-Sum system, the IV-D agency may initiate
reviews through an administrative modification. An administrative modification may be initiated
for one of the following reasons: if there is a change in income of plus or minus 50 percent; to add
a child to an already established case; to add health insurance to a case; to modify a case when a
minor is not complying with educational requirements; and to accommodate other unique
situations. The review and adjustment process under an administrative modification is similar to
the process following a Med-Sum initiated or parent requested review. The major difference is
the criteria under which each type of review is opened.

According to State policy, medical coverage is always checked for under the administrative
modification process and when a review is initiated in response to a parental request, unless a
non-public assistance custodial parent requesting a review specifically asks that medical coverage
not be included. However, according to local office respondents, medical support availability is
only checked if the parent requesting a review explicitly asks for medical support to be attached.
Two of the four local office respondents we spoke with also report checking for medical support
if the custodial parent receives Medicaid. Local office respondents said that caseworker
discretion is used to determine when to pursue an adjustment to add medical support if a case
does not otherwise meet the 20 percent adjustment threshold.

Parental Requests for Review

Iowa honors all parental requests for reviews if the order has not been reviewed in the past 2
years and the youngest child is younger than 17 ½ years of age. If an order has been reviewed
within the past 2 years, but the parent can prove a 50 percent variance in income, an
administrative modification will be pursued.

Parents learn of the right to request a review through mail notification when the order is
established and every 3 years thereafter. The Iowa Office of Child Support received 127 requests
for reviews from custodial parents in 1997 and 77 requests from noncustodial parents. Twenty-six
of the custodial parent requests and twenty-one of the noncustodial parent requests were on
public assistance cases. Iowa honored 197 of the 204 total review requests.

Unique Feature of Iowa’s Review and Adjustment Process

On July 1, 1998 Iowa began to apply COLAs to child support orders in response to parental
requests. The COLAs are applied only when requested by both the noncustodial and custodial
parent. The parties can request the COLA if it has been at least 2 years since the support order
was last reviewed. Either parent in public assistance cases can also request a COLA. If one of
the parties does not agree to have the COLA applied, the case reverts to a full review. The
COLAs are only applied to cases where medical support is already provided. If a COLA is
requested on a case without medical support, a full review will be conducted.

                                          )))))))))))
                                               4
To apply the COLA, the IV-D agency applies the cost of living index for each year from the date
the order was entered, last reviewed or modified to the year before the request for the COLA is
received. For example, if a COLA is to be applied to a court order established in 1996 and not
reviewed or modified since, Iowa applies the cumulative changes in the cost of living for each
year since then. The COLAs are only applied once in response to each request. Parents will have
to file an additional request in 2 years if they want the COLA to be applied again.




                                        )))))))))))
                                             5
                          MASSACHUSETTS

The Child Support Enforcement Division of the Massachusetts Department of Revenue
administers the Massachusetts IV-D program through five regional offices and two satellite
offices. As of September 1997, the State’s total IV-D caseload was 259,677. Slightly over one
quarter of these cases were public assistance cases (72,184), In fiscal year (FY) 1997, the IV-D
agency reviewed 3,800 cases, adjusted 349 cases upward and adjusted 185 cases downward.2
The average monthly increase was $233 and the average monthly decrease was $143.

Massachusetts has elected to continue to conduct triennial reviews of all public assistance cases.
The State’s computer system identifies all Temporary Assistance to Needy Families (TANF) cases
that have not been reviewed in the previous 2 ½ years. Case reviews are assigned to the regional
office responsible for the case. The IV-D workers in the regional offices are assigned case
reviews on a round robin basis.

The Review and Adjustment Process

The Massachusetts computer system matches all support orders in the triennial review phase
against State quarterly wage and tax data and identifies which cases have the potential to meet the
State’s threshold for adjustment, i.e., a 20 percent change in the order. The IV-D workers review
the system’s calculations on these cases and if they appear correct, “fast tracks” the case through
the review process. Fast-track cases are sent to the litigation department where they are filed for
adjustments. All other triennial review cases proceed through the regular review and adjustment
process.

When the system runs its automated match on cases in the triennial review phase, it checks to see
if there is a code for health insurance coverage to be provided if and when it is available. If there
is not medical coverage language in the order, the system will fast track the order for adjustment
to add “if and when available” medical coverage language to the order. Once this language is
added to orders, ensuring the provision of available medical coverage is an enforcement issue
rather than a review issue.

Respondents in the two local offices we visited report that they are not currently receiving
assignments for triennial reviews while they are in transition to the new COMETS computer
system. According to the respondents, the automated review program will resume once the new
system is fully implemented. Respondents in both local offices report that they currently initiate
reviews if they see that an adjustment may be appropriate when reviewing a case through other
processes.

When a review on a case is opened, through IV-D initiation or in response to a parental request,
the automated system generates notices both to the parents and the employer soliciting income


       2
               Some of the cases adjusted in 1997 were reviewed in 1996

                                            )))))))))))
                                                 6
and employment information. The system also provides the IV-D worker with case information
through interfaces with the State wage and tax data. The IV-D worker enters the collected
information into the system which then calculates whether there would be a 20 percent change in
the order based on the guidelines.

If the system determines the need for an upward adjustment on a public assistance case, the IV-D
worker forwards the case to the litigation department. The litigation department files for a court
hearing date and serves notice to both parents.

If a review indicates the need for a downward adjustment on any case or an upward adjustment
on a non-public assistance case, the IV-D worker notifies the parents of their option to file for the
adjustment. If the parent chooses to file for the adjustment, the child support office will provide
the parent with the paperwork to do so. The IV-D agency can only sign the complaint for a
modification on behalf of a public assistance custodial parent. Upon completion of the
paperwork, the parent returns the information to the child support office who schedules the
hearing.

After the paperwork is complete and a court date scheduled, the process is the same whether the
adjustment is filed on behalf of a custodial or noncustodial parent or a public assistance or
non-public assistance case. The court requires both parties to submit a financial statement prior
to or at the hearing. Both parties are expected to be present at the hearing with the judge and a
child support office attorney. The judge reviews the information and makes the adjustment at the
hearing.

Parental Requests for Reviews

The Massachusetts IV-D agency honors all parental requests for reviews, unless the case has been
reviewed recently (i.e. in the last 60 days) and there is no indication of a substantial change in
circumstances. The IV-D workers determine whether or not to conduct a review if a case has
been reviewed within the past 3 years. Requests for review are rarely denied.

Parents are notified about the right to request a review in their application for services, their
welcome letters upon the start of service, their initial order, in any notice of a child support lien,
and through court attendance. The State’s automated voice response menu also provides
information about the right to request a review. In addition, the staff of the Worcester regional
office informs parents of the right to request reviews through community outreach efforts.

Unique Feature of Massachusetts’ Review and Adjustment Process

The Division of Child Support Enforcement office in Worcester is starting a “Leading Edge”
project to target reviews to parents exiting public assistance. The local Department of
Transitional Assistance (DTA) office will inform the local IV-D office of TANF cases which are
nearing the TANF eligibility time limit. (The first Massachusetts families reached this time limit
in December 1998.) Upon notification from the DTA office, the IV-D office will review cases
reaching the time limit to see if a child support order adjustment can be processed as the families
exit public assistance.

                                           )))))))))))
                                                7
                                  MICHIGAN

The Office of Child Support in the Family Independence Agency administers Michigan’s
IV-D program. The Office of Child Support contracts with all 64 Friend of the Court offices
in Michigan’s 83 counties to handle child support enforcement activities. In 1997 Michigan
IV-D had over 863,000 cases, about one-fifth of them (almost 191,000) are welfare cases.

Michigan requires a review of all welfare child support orders every 2 years. All but 14 county
Friend of the Court offices are on line with the State IV-D system. These offices receive daily
system alerts advising which cases are due for their 2 year review for possible adjustment.
Some Friend of the Court offices use other automated techniques to identify cases ready for
the 2 year review, while other offices rely on individual investigators, referees, or other
personnel to call attention to cases ready for review. In 1996, 11,500 cases were adjusted
upward and 6,996 downward.

Parental Requests for Reviews

Parents learn of their right to request a review of their child support order in different ways.
While Michigan provides this information in all initial child support orders and advises all
parties by mail every 3 years, most notification takes place at the local level. The Friend of the
Court requires both parents to attend an orientation when a marriage is being dissolved.
There, each party receives a Friend of the Court handbook which includes information on
requesting reviews. In non-divorce cases, the Friend of the Court sends the handbook to both
parties. In addition, Michigan observes a “Child Support” month each October and airs many
public service announcements. Posters in some Friend of the Court offices call attention to the
right to request a review. Michigan also notifies individuals of their right to request a review
prior to revoking licenses or invoking a lien because of child support arrears.

Michigan honors a parent’s request for a review of the court order if it has been at least 2 years
since the last review. The Friend of the Court offices honor any request for review without
regard to time limits if a change in circumstances may warrant a new order.

However, local offices may differ in handling these requests. In Ingham County, the Friend of
the Court gives a pro se package to a parent requesting a review within 2 years of the last
review. This do-it-yourself package requires the requesting party to furnish proof that a
monthly change in the support order should take place. When this information is obtained, the
Ingham County Friend of the Court office assists the parents in proceeding with the review and
adjustment. Ottawa County, which is considerably smaller than Ingham County, honors all
parental requests for reviews of support orders.

Michigan’s Review and Adjustment Process


                                       )))))))))))
                                             8
The Friend of the Court IV-D workers follow the Michigan guidelines formula to determine if
an adjustment of the court order is appropriate. The IV-D review must show the court order
will change by at least 10 percent or $5 weekly before the Friend of the Court office proceeds
with an adjustment to the court order. Michigan’s review and adjustment process is identical
for custodial and noncustodial parents, welfare and non-welfare cases, and upward and
downward modifications.

Michigan requires IV-D workers to request adjustment of child support orders to include
medical support if it was not included in the original support order. The package requesting
information from the parents and employer specifically ask for health insurance availability.
The Ingham County office has a health insurance unit to look for cases with no medical
support included.

The Friend of the Court offices may differ in the methods used to determine the noncustodial
parent’s income. Some offices use the parent locate system to identify earnings while others
send letters directly to the noncustodial parent’s last known employer and ask for that data.
Ingham County sends letters both to the employer and the noncustodial parent asking for
earnings information. Besides using the State system for parent locate and Internal Revenue
Service’s 1099 information, Ottawa County uses the system for credit bureau linkages.

The Friend of the Court offices that are on-line with the State system also have access to
additional data, including linkages with the Department of Corrections and the quarterly wage
match from Michigan employers. In the future, Michigan intends to provide an on-line “data
warehouse” that will allow IV-D workers access to even more information the State maintains.

All Friend of the Court offices follow a similar process when a change in a court order appears
necessary. The IV-D worker calculates the amount of the proposed support order by using a
“guidelines” software program and meets with the parents at a review appointment. If both
parties agree with the proposed change, they can sign a stipulation and consent agreement
which, if approved by the court, will be entered as the support order. Although Michigan law
requires modification cases be completed within 180 days, these uncontested cases are
typically resolved within 90 days from the time the case is identified for review.

If there is no mutual consent to the proposed support order, a hearing will be held by a Friend
of the Court referee. (In Ottawa County, a pre-hearing meeting is scheduled with parents to
discuss how the proposed support amount was devised in accordance with the Michigan child
support formula. About three-fourths of the cases are resolved at this time and there is no
need to go before a referee.) The referee hears the matter, makes a decision and drafts a
Recommendation and Order that will be signed by a judge within 21 days unless either party
protests. If either parent raise objections to the new proposed support order, they may appeal
this decision to the circuit court.

Unique Aspect of Michigan’s Review and Adjustment Process



                                      )))))))))))
                                            9
Michigan dramatically demonstrated the value of reviewing child support orders by providing
one-time special funding to the Genessee County Friend of the Court for these cases. This
office devoted eight full-time and two part-time staff to work review and adjustment cases
exclusively for the life of the 3 year project.

Genessee County included both AFDC and non-AFDC cases in the review and adjustment
project. When the project concluded in 1996, Genessee County had modified 4,137 cases.
Child support orders increased for 3,754 families and decreased in 219 cases. In 164 cases,
the only change to the support order was the addition of health care coverage. The AFDC
modifications totaled 2,503 cases, including 2,333 upward modifications, 108 downward
adjustments, and 62 added health insurance to the court order. The 1,634 non-AFDC
adjustments included 1,421 increased child support orders, 111 decreases and 102 adding
health insurance only.

The Genessee County Friend of the Court collected significant additional amounts of child
support for children covered by these adjusted court orders. Collections in these cases
increased over $8.4 million for the life of the project - more than $2.4 million for the AFDC
cases. In addition, 1,507 AFDC cases closed after the upward adjustment of the child support
order. The project also instituted wage withholding for many of the noncustodial parents and
added additional children born to the parties subsequent to the initial court order.

Michigan began funding a similar review and adjustment project in Wayne County recently.




                                     )))))))))))
                                           10
                                MINNESOTA

The Department of Human Services (DHS) administers the IV-D program statewide by
contracting with 87 counties to deliver child support enforcement services. In 1997,
Minnesota’s IV-D caseload was 211,783, with about 36 percent being welfare cases.

Minnesota’s cost-of-living-adjustment adjusts child support court orders every 2 years and has
done so since 1983. Increases are tied to the Consumer Price Index established by the
Department of Labor and are effective in May of the year the COLA is applied. The COLA
adjustment affects all Minnesota court orders. The entire COLA process is automated with
little or no work required at the local level. The DHS computer system automatically
processes the adjustment (not a modification to the court order) and notifies the parents in
March of the upcoming change and gives them the right to request a hearing prior to the
change. The frequent COLA adjustments obviate the need for many reviews.

After the Personal Responsibility and Work Opportunities Reconciliation Act of 1996,
Minnesota eliminated their required periodic 3 year review of child support orders. However,
DHS still alerts each county IV-D worker with a “work list” of public assistance cases that has
not been adjusted in the last 3 years. Each county decides whether or not to review any of
these cases. Hennepin County in Minneapolis, where we visited, opts not to require their child
support officers to do so. In that office, each child support officer chooses which cases, if any,
to refer to their Review and Adjustment officer. Child support officers may also identify cases
in their caseloads where a review might be in order. Minnesota is working toward computer
interfaces that will identify cases likely to meet their dual thresholds and then generate a new
support order proposal from their system.

Whether cases will be reviewed is problematic. Despite Minnesota paying local offices
incentives to perform reviews of child support orders, some offices cite the lack of resources as
the reason for not performing these reviews. Considerable variation exists on handling cases
between local IV-D offices where DHS identifies cases not reviewed in the last 3 years. In
State fiscal year (SFY) 1996, IV-D offices reviewed more than 7,000 court orders and nearly
7,500 in SFY 1997. While some IV-D offices accounted for many court order reviews, 22
Minnesota counties performed 10 or fewer reviews in SFY 1996.

Parental Requests for Reviews

Minnesota uses multiple ways to notify parents of their right to request a review of the court
order, including sending an annual notice to both parents. The DHS advises parents in billing
statements or notices of collection, as frequently as quarterly. They also produce pamphlets
calling parents’ attention to their right to request a review. The DHS voicemail system offers a
menu of information choices parents can select to learn about child support issues, including
review and adjustment of court orders. Child support officers might also call parents’ attention

                                       )))))))))))
                                             11
to possible review while working on another aspect of their case. Public relations campaigns
call attention to review and adjustment as well. The initial application for IV-D services
advises both public assistance and non-public assistance parents of their rights to request a
review of their child support orders.

Minnesota honors parental requests for review without concern to time limits. However, a
child support officer can deny the request if for example, it has been less than 3 years since the
last adjustment. If a request is denied, Minnesota provides materials to parents to initiate the
review and adjustment process themselves. To modify a court order, the difference must be
both $50 and a 20 percent monthly change. Both thresholds must be met regardless of the
length of time since the last court order review.

Review and Adjustment Process

Minnesota’s review and adjustment process is identical for custodial and noncustodial parents,
welfare and non-welfare cases, and upward and downward modifications.

When a case is being reviewed, IV-D workers consider several sources of available information
to determine whether an adjustment of the court order is warranted. They examine wage
match data from the State Department of Employment Security, new hire reporting data,
employer verification information, tax reporting data, and also request financial information
from both parents.

When a review indicates that a new court order is appropriate, the local office sends both
parents a notice and a copy of the proposed order. One or both of the parties can request a
meeting if they do not agree with the proposed order. If the parents do not respond within 30
days, the proposed court order goes into effect. No court appearances are required. If both
parents do not agree to the proposed court order a hearing before an administrative law judge
is scheduled. About 20 percent of the proposed child support adjustments are resolved by
these administrative law judges.

Minnesota requires that health insurance be considered on every case. The package used when
requesting information from the employer on court order reviews specifically asks for health
insurance availability. The Hennepin County IV-D office no longer pursues adjustments for
medical insurance only because their administrative law judges will not do stand-alone issues
for adjustments.

Unique Aspect of Minnesota’s Review and Adjustment Process

Since July 1993, Minnesota pays an incentive to its local IV-D offices of $100 for every new
support order established, support order reviewed, paternity established, and $50 for each child
covered under a noncustodial parent’s health plan. In SFY 1997, Minnesota paid its counties
$370,800 in incentives for their reviews of court order reviews, an increase from $351,500 in
SFY 1996.

                                       )))))))))))
                                             12
Minnesota paid incentives to Hennepin County alone of more than $930,000 from July 1993 to
December 1995, with over $230,00 resulting from reviewing court orders. With these funds,
Hennepin County hired additional staff to perform review and adjustments.

A 1996 report prepared by Hennepin County for the Federal Government Performance Results
Act of 1993 evaluated the first 30 months of the incentive program in Hennepin County
compared to the years immediately prior. The study shows a substantial increase in the number
of court order modifications. Comparing the 42 months prior to the incentives to the 30
months subsequent to their introduction, Hennepin County modified 1596 cases after
incentives were introduced versus 204 done from 1990 to mid-1993. More than 70 percent of
the modifications adjusted welfare cases.

The combination of Minnesota’s incentive program to reward local IV-D offices for reviewing
support orders and their longstanding COLA adjustments contribute significantly to Minnesota
collecting more child support per case than any other State in Federal Fiscal Year 1996.




                                     )))))))))))
                                           13
                               MISSISSIPPI

The Mississippi Department of Human Services administers the State’s child support
enforcement program through 84 local offices. The State’s IV-D caseload as of May 1998
was 295,125 cases. Slightly over one quarter of these cases (75,738) were IV-A cases.
Mississippi does not have Statewide figures on review and adjustments.

Mississippi has discontinued its triennial review of public assistance cases. The State no longer
initiates any review of child support orders. Local office respondents indicated that if they see
the need for an adjustment on a case, they will contact the parent to ask if they would like a
review to be conducted. However, two of the local office respondents we spoke with said that
if they see the need for an adjustment on a public assistance case, they will proceed with the
adjustment without seeking a parental request.

Parental Requested Reviews

All parents are sent a system-generated notice explaining their right to request a review when
their order is first entered and every 36 months thereafter. Custodial parent review requests
are honored if it has been at least 3 years since the order was last reviewed. If it has been less
than 3 years, a material change of circumstances needs to be proven before a review will be
conducted.

Noncustodial parents can also request a review by the IV-D agency if they are current in their
payments. If the noncustodial parent is current in his or her payments, his or her request is
treated the same as a request from a custodial parent. However, if the noncustodial parent is in
arrears, his or her request for a review will be denied, unless he or she is granted a special
exception.

Review and Adjustment Process

When a caseworker opens a review on a case, they send both parents a form to solicit income
information. The caseworker also sends the noncustodial parent’s employer a wage
verification form. In addition, the caseworker has automated access to Mississippi’s
Employment Security Commission to obtain wage information on the noncustodial parent.
The caseworker enters the collected information into the automated child support system
which calculates whether there is a 25 percent change in the order, the State’s threshold for
adjustment.

Caseworkers routinely check for the availability of medical support as part of the review
process. The employee wage verification form sent to the employer includes questions about
the availability and cost of medical coverage. Child support offices will pursue medical only
adjustments if medical support is found to be available at a reasonable cost. What constitutes

                                       )))))))))))
                                             14
reasonable cost is to be determined by the caseworker.3

The caseworker notifies both parents of the review determination. If there is a 25 percent
decrease in the order and the noncustodial parent is current in payment, or there is a 25 percent
increase in the order, the caseworker notifies the parents that they are going to refer the
proposed adjustment to the child support office attorney to file for an adjustment. The parents
have 30 days to contest the proposed adjustment to the caseworker. In this time period, the
caseworker can change the proposed adjustment administratively based on any new
information brought forward and issue another notice of proposed adjustment to both parents.

After 30 days, the caseworker refers the case to a child support enforcement attorney who files
the proposed adjustment with the court. The court summons the noncustodial parent to court
and requests the custodial parent to attend the court hearing. The child support enforcement
attorney presents the proposed adjustment before the judge at the court hearing. Prior to a
court hearing, the child support enforcement attorney can enter into an agreed judgment for
modification with the parents. If the agreed judgment is approved by a judge, the hearing is
not necessary. The judges usually approve the agreed judgments. Noncustodial parents often
hire a private attorney to negotiate an agreed judgment with the child support enforcement
attorney, avoiding the court hearing.

If there is a 25 percent decrease in the proposed order, the adjustment process is the same as
above if the noncustodial parent is current in his or her payments. If a review demonstrates the
need for a downward adjustment and the noncustodial parent is not current in his or her
payments, the adjustment will not be pursued. According to local office respondents, some
judges and local office workers are reluctant to pursue any downward adjustments, even when
the noncustodial parent is current in his or her payments.

Unique Features of Mississippi’s Review and Adjustment Process

Mississippi’s review and adjustment on behalf of noncustodial parents is contingent upon his or
her payment of child support. Noncustodial parents who are in arrears are not able to have
their orders reviewed. If a custodial parent requests a review and it is determined that a
downward adjustment is appropriate, the IV-D agency will only pursue the downward
adjustment if the noncustodial parent is current in his or her payments.




    3	
            According to Federal regulations, “Health insurance is considered reasonable cost if it is
            employment-related or other group health insurance, regardless of service delivery mechanism.
            (45 C.F.R., 303.31)

                                         )))))))))))
                                               15
                                     NEVADA

The Department of Human Resources’ Welfare Division administers Nevada’s IV-D program.
The Department’s Child Support Enforcement Program contracts with district attorneys to
handle child support enforcement activities in Nevada’s 17 counties. In early 1998, Nevada
IV-D had over 83,000 cases, more than 40 percent of them (almost 37,000) welfare cases.

At present, there is no Statewide child support system that captures review and adjustment
data. System capabilities vary in the county IV-D offices. In 1997, Clark County, which is
Nevada’s largest county and contains Las Vegas, reviewed 1,001 cases resulting in 194
adjustments, 150 of them upward adjustments. However, other counties do not routinely track
review and adjustment data.

In response to the Personal Responsibility and Work Opportunities Reconciliation Act of 1996,
the Nevada legislature gave the IV-D agency the option of using any of three methods to
review cases for possible adjustment. Nevada can continue to use the 3 year review of public
assistance cases, develop an automated mechanism to review and adjust support orders and/or
make adjustments based on an automatic COLA. However, the latter two approaches require
a certified child support system which is currently in pilot/conversion status. County IV-D
agencies currently decide whether or not to review public assistance cases.

Parental Requested Reviews

Nevada has no Statewide periodic notification to parents advising them of their right to request

a review. Parents learn of review and adjustment at the time of their application for

Temporary Assistance for Needy Families (TANF) and/or IV-D services and when the initial

court order is adjudicated and when a parent is located during an enforcement action. In the

future, Nevada hopes to implement a COLA to raise most court orders rather than relying on

review requests from parents.


In Nevada, all requests for reviews that have not been reviewed in the last 3 years are honored. 

The Reno IV-D office also honors requests on cases when the review took place more recently

if the requesting party alleges a change in circumstances. The Carson City 

IV-D office requires at least 6 months between reviews. If the review has been done more

recently, the parent requesting is given a pro se package. This do-it-yourself package requires

a parent to furnish proof that a monthly change in the support order of $75 and 20 percent

should occur. Serving the other parent with the request for income information is also part of

this package.


Review and Adjustment Process

Nevada’s review and adjustment process is nearly identical for custodial and noncustodial

                                      )))))))))))
                                            16
parents, welfare and non-welfare cases, and upward and downward modifications. Nevada
requires IV-D workers to adjust child support orders to include medical support if it was not
included in the original support order. However, in Clark County, pursuing health insurance
adjustments to the child support orders is optional based on the custodial parent’s wishes.

Nevada requires a 3 year review of support orders on public assistance cases but there is no
State system to identify these cases to the county IV-D offices. In the county IV-D offices we
visited in Carson City and Reno, both offices wait for the welfare agency to request reviews on
TANF cases. In these offices, the welfare agency case worker typically makes a written
request for a review.

When IV-D workers receive a case for review, they determine if a review was recently done or
if a change in circumstances is alleged. The IV-D workers routinely get State new hire and
quarterly wage information on the noncustodial parents to begin the review process. They
request wage information and health insurance availability from the noncustodial parent’s
employer as well. The IV-D workers compile financial information and expenses on both
parents. In welfare cases, it is not necessary to obtain financial information on the custodial
parent.

The review and adjustment process differs slightly in the offices we visited. In Washoe
County, the IV-D office takes an active role in the cases on requests for reviews and files
motions on behalf of the requesting parent. The IV-D worker compares the noncustodial
parent’s income to the guidelines to determine if an adjustment is appropriate. If so, the Court
Master conducts the adjustment hearing and renders a decision on the proposed court order.

 In Carson County, a IV-D worker determines how long it has been since the current order
was established. If it has not been 3 years (or 6 months and a substantial change in
circumstances) since the order was determined, the requesting parent is responsible for pro se
action on the case. If it has been at least 3 years since the last review, the IV-D worker sends
notices of a requested review to both parents along with requests for income and financial
information. A hearing caseworker takes over the case and sends notices of the proposed
hearing and after the hearing, notices of the new child support order amount. A district court
judge signs the new court order.

The IV-D offices we visited allow parties to stipulate voluntarily to proposed changes in
support orders. In Carson and Washoe counties, if both parties agree to a change in support,
they can sign a stipulation to modify the order, pending Court approval. If either party objects,
a hearing before a Court Master in the district court is scheduled. This Court Master makes
the decision on the new order amount. Parents also have appeal rights to the court following
this decision.

Nevada is planning an in-depth review of the entire modification process. They will be
interviewing personnel involved in each part of the process. They will analyze the results to
determine what changes, if any, should be made to the review and adjustment process.

                                       )))))))))))
                                             17
Unique Aspect of Nevada’s Review and Adjustment Process

A special relationship exists between the Nevada noncustodial parent employment and training
project in Reno and the Washoe County IV-D office. The project primarily aims to assist
current and former TANF noncustodial parents find employment. Besides providing referrals
to support services and help with job training and placements, the project also stresses the
importance of child support enforcement to these parents. (The noncustodial parent
employment and training project is also underway in Las Vegas, but our Nevada visits were
limited to IV-D offices in Reno and Carson City.)

As soon as a job placement for a noncustodial parent is made, the project’s Support
Enforcement Specialist walks across the hall to alert the IV-D office of this fact. The IV-D
office can contact the employer the same day to make certain that wage withholding and health
insurance is begun for the children of that noncustodial parent. The Reno IV-D workers state
that the Support Enforcement Specialist’s notification is even quicker than the new hire
reporting.




                                     )))))))))))
                                           18
                                 NEW             YORK

The Office of Child Support Enforcement of the New York Department of Social Services
supervises and monitors the administration of the State’s child support enforcement program.
The program is administered by Child Support Enforcement Units (CSEUs) in each of the
State’s 57 counties and by the city of New York’s Office of Child Support Enforcement. New
York’s IV-D caseload as of September 1997 was 1.2 million cases. Almost half of these cases
(574,000) were IV-A cases. The New York IV-D agency does not have review and
adjustment figures.

New York has terminated its triennial review and adjustment of public assistance cases. The
State commenced a new review policy on January 1, 1998. Under this new policy, the State
will conduct one-time clean-up reviews of public assistance cases in which the order was last
issued before September 15, 1989. New York will apply a COLA to public assistance cases
when the cumulative cost of living increase is 10 percent or more since the order was last
reviewed, using 1994 as a base year for the start of the program.

New York began implementation of its COLA program in September 1998. The COLAs are
applied to all support orders in public assistance cases when the cumulative consumer price
index for urban consumers (CPI-U) since the order was last issued, modified, or adjusted is 10
percent or more. The base year for this program is 1994. A COLA is applied once the
cumulative CPI-U since 1994 (or the year the order was last issued, modified or adjusted,
whichever is later) is 10 percent or more and the date the order was last issued, modified or
adjusted is at least 2 years old.

Parental Requested Reviews

Parents are notified of the right to pursue a judicial modification of their order in their initial
court order. They are not otherwise notified of this right, unless a caseworker notifies them.
Parents in non-public assistance cases in which the order was last issued prior to September
15, 1989 will receive a notice informing them of their right to request a one-time administrative
review or a COLA. Parents in non-public assistance cases in which the order was last issued
on or after September 15, 1989 will receive a notice informing them of their right to request a
COLA when they are eligible for a COLA.

Under New York’s new review and adjustment policy, parental requests for reviews will only
be honored if the case meets the criteria for a one-time administrative review or for a COLA.
The State will initiate an administrative review or application of a COLA on behalf of parents
in public assistance cases who meet the criteria for the review or a COLA. Parents in non-
public assistance cases can request a one-time administrative review if their order was last
issued, modified or adjusted prior to September 15, 1989. Parents in non-public assistance
cases can also request that a COLA be applied to the order if the order has not been issued,

                                       )))))))))))
                                             19
modified or adjusted in at least 2 years and the cumulative CPI-U is 10 percent or more since
1994 or the date the order was last issued, modified or adjusted.

Parents in non-public assistance cases can also pursue judicial modifications at any time.
However, the courts will only hear petitions for judicial modifications if there is proof of an
unforseen substantial change of circumstances. Custodial parents may seek a judicial
modification pro se in the courts or they may pursue it through a caseworker in the CSE unit.
Noncustodial parents must pursue judicial modifications pro se in the courts. The CSE units
will not file a petition for a judicial modification on behalf of a noncustodial parent.

Review and Adjustment Process

Administrative Review - Under the administrative review program, New York’s Child Support
Management System (CSMS) is identifying all of the public assistance cases with an order
issue date prior to September 15, 1989. The child support offices receive a list of their cases
identified for the review. Caseworkers conduct the administrative reviews using the CSMS.
The CSMS issues a notice to the parents when the review is opened, soliciting income
information. Caseworkers also solicit income information from the noncustodial parent’s
employer. In addition, caseworkers have access to State wage information through the
automated system. Caseworkers enter all of the collected information into a system module
which calculates whether there is a 10 percent change in the order, New York’s threshold for
adjustment.

If there is a 10 percent increase in the order, the caseworker sends a notice of the proposed
adjustment to the parents and to the court. If the parents do not object to the proposed
adjustment, the order is signed into law. If either parent objects to the proposed order, a court
hearing is held to determine the final adjustment.

If there is a 10 percent decrease in the order, the caseworker sends both parents an affidavit of
the findings. The noncustodial parent may use the affidavit of findings to file a petition for the
downward adjustment with the courts pro se. The courts usually honor these petitions for
downward adjustments.

Since 1995, all orders in New York are supposed to include language instructing the
noncustodial parent to provide medical coverage to the children if and when it is available.
When conducting a review of any order, caseworkers check to see if this language is included.
If medical support language is not in the order, the child support unit will pursue an adjustment
or modification of the order to add the language to provide medical support. However, courts
sometimes reject petitions to modify cases only to add medical support. Once medical support
language is in the order, the provision of medical coverage is an enforcement issue.

Judicial Modifications - In addition to administrative reviews, child support enforcement units
in New York can pursue modifications on behalf of public assistance cases through the judicial
process. If a IV-D worker sees the need for a modification when processing a case for other

                                       )))))))))))
                                             20
reasons (usually enforcement,) the worker can refer the case to the court referral unit. This
unit, rather than the review and adjustment unit, pursues judicial modifications. An
administrative review is not conducted on these cases. The court referral unit files the case for
a judicial modification. There is no monetary threshold required for a judicial modification.
However, the courts require that an unforseen significant change in circumstance must occur in
order to make a judicial modification. The decision to even hear a petition for a modification
in court is based on case law.

Unique Feature of New York’s Review and Adjustment Process

The State IV-D office applies COLAs to all public assistance cases with orders issued on or
after September 15, 1989 when the CPI-U is 10 percent or more since the order was last
reviewed. The State IV-D office sends local IV-D offices a list of all of the public assistance
cases in their jurisdiction which will receive a COLA.

Local offices can object to the COLA on behalf of a parent on public assistance. Through this
method, local offices can initiate reviews of public assistance cases which appear to need a
greater adjustment than a COLA. If the local office objects to the COLA, the case will be
reviewed in a judicial guidelines hearing. According to one local office respondent, the local
office will receive a system generated wage comparison on each order subject to a COLA to
facilitate local office determination of whether to seek a judicial guidelines hearing instead of
the COLA.




                                       )))))))))))
                                             21
                                OKLAHOMA

The Department of Human Service administers Oklahoma’s IV-D program. The Department’s
Child Support Enforcement Division (CSED) operates 6 offices and contracts with 18 district
attorneys and 2 private entities to handle child support enforcement activities. In 1997,
Oklahoma’s IV-D caseload was over 133,000, about one-third of them (almost 45,000)
welfare cases. Oklahoma reviewed 909 child support orders in 1997, resulting in 357 support
order increases and 192 support order decreases.

With welfare reform, Oklahoma discontinued a 3 year review of child support orders on public
assistance cases. However, Oklahoma’s computer system alerts IV-D offices of public
assistance cases where the court order has not been reviewed in the last 3 years. The child
support specialists in these local offices decide whether or not to review the court orders on
these cases for possible adjustment. In the future, the Oklahoma system will no longer provide
these alerts to IV-D offices.

Parental Requested Reviews

Oklahoma provides information regarding the opportunity to request a review and adjustment
of court orders to parents in several ways. Besides making pamphlets and a review and
adjustment handbook available to parents, CSED sends a notice to parents every 30-36 months
advising them of the possibility of requesting a review of their court order. The CSED
voicemail system offers a menu of information choices parents can select to learn about child
support issues, including review and adjustment of court orders. Child support specialists in
local IV-D offices might also call parents’ attention to a possible review while working on
another aspect of their case. In addition, the Department of Human Service maintains a
website with information relating to review and adjustment of court orders.

Oklahoma honors a parent’s request for a review of the court order if it has been at least 12
months since the last review. Oklahoma does not require that a material change in
circumstances occurred unless it has been less than 30 months since the last review. The
IV-D review must show the court order will change by at least 25 percent monthly before
CSED proceeds with an adjustment to the court order. Currently, Oklahoma is considering
higher child support guidelines. If this change occurs, more cases will meet their threshold and
be eligible for adjustment.

Review and Adjustment Process

Oklahoma’s review and adjustment process is nearly identical for custodial and noncustodial
parents, welfare and non-welfare cases, and upward and downward modifications. When
IV-D workers identify a case for review or receive a request for review, they determine
whether a review was recently done and update the system file to begin tracking a pending

                                      )))))))))))
                                            22
modification. Oklahoma requires IV-D workers to request adjustment of child support orders
to include medical support if not included in the original support order.

The computer system generates a notice to both parents advising them of the review and a
questionnaire requesting financial information from both parents. (Oklahoma does not request
income data from custodial parents on welfare cases.) The notice tells parents to return the
questionnaire in 15 days and advises them of the time, date and place of a “review
appointment.”

Besides using the financial questionnaire completed by the noncustodial parent, a IV-D worker
uses a variety of methods to verify the noncustodial parent’s earnings, eligibility and address.
The IV-D worker requests wage information and health insurance availability from the
noncustodial parent’s employer. A IV-D worker can obtain information from the State’s
employment security, public safety, corrections, tax commission, wildlife, and professional
licensing records. The CSED has access to credit bureau, utility company information, and tax
information from the Internal Revenue Service through a computer interface. The CSED
recently added IV-D office access to State new hire reporting data.

The IV-D worker analyzes the completed questionnaires and other data collected, calculates
the amount of the support order by use of a “guidelines” software program and meets the
parents at the review appointment. At the review appointment, the IV-D worker confers with
both parents and explains how the proposed support order amount was determined. If both
parties concur, they sign a Waiver and Order of Modification. The IV-D worker enters the
new order into the system and notifies the noncustodial parent’s employer of the change in
wage withholding. From start to finish, non-contested cases in Oklahoma require 2 to 6
months to review and adjust, depending on jurisdiction and whether or not the cases include
appointment interviews.

Unique Feature of Oklahoma’s Review and Adjustment Process

Oklahoma CSED recognizes that very few parents request review of their court orders and is
testing an innovative approach to publicize the availability of reviews and adjustments. This
project will also allow a parent to begin the review process without visiting a IV-D office.
Funded by a grant from the Office of Child Support Enforcement, CSED will establish
interactive review and adjustment kiosks in five shopping malls in 1998 - three in Oklahoma
County and two in Tulsa County. The kiosks will offer 24 hour access, which is important for
working parents unable to visit CSED offices during regular business hours. Oklahoma plans
to add five additional kiosk sites in subsequent years.

The kiosks will provide information on child support review and adjustment and point out that
Oklahoma law permits day care and health care expenses to be included in the support order.
Anonymously, a parent can enter their income data and other pertinent information into a
software program. This program estimates the appropriate support order, based on
Oklahoma’s child support guidelines, for that income and number of children covered by the

                                      )))))))))))
                                            23
order. A readout advises the parent of this amount. The parent can choose to make the
request for a review immediately and the review process begins without the need for a personal
or written contact with CSED staff.

This project is intended to last 3 years but may be extended longer. There is considerable
interest by other agencies in the kiosk idea and they may wish to include information about
other programs using these kiosks. There will be a formal evaluation of the project.




                                      )))))))))))
                                            24
                                     OREGON

The Department of Human Resources’ Adult and Family Services (AFS) Division administers
Oregon’s IV-D program. The AFS contracts with the Support Enforcement Division (SED) in
the Oregon Department of Justice to handle child support activities on welfare cases and with
local district attorneys for enforcement on non-welfare cases. In early 1998, SED had
approximately 280,000 cases, about 7 percent (18,500) were welfare cases. The SED
estimates that approximately 1,000 cases are adjusted monthly statewide, two-thirds of them
upward modifications.

Like many States, Oregon changed their approach to reviews and adjustments of child support
court orders with the advent of welfare reform. In the early 1990's, Oregon was one of the
pioneers in reviewing and adjusting court orders systematically and periodically. However,
since the Personal Responsibility and Work Opportunities Reconciliation Act of 1996, Oregon
no longer mandates review of unrequested court orders every 2 years as they did previously.

Parental Requested Reviews

Besides offering numerous pamphlets to parents, SED sends an annual notice to parents
advising them of the possibility of requesting a review of their court order. Initial court orders,
as well as newly-modified orders, also contain information about the review and adjustment
process.

Oregon honors a parent’s request for a review of the court order if it has been at least 2 years
since the last review. Currently, Oregon does not require the requesting parent demonstrate
there has been a material change in circumstances unless it has been less than 2 years since the
last review. The SED review must show the court order will be changed by at least $50 or 15
percent monthly before proceeding with an adjustment to the court order.

Review and Adjustment Process

Oregon’s review and adjustment process is identical for custodial and noncustodial parents,
welfare and non-welfare cases, and upward and downward modifications.

In place of any required review of court orders, IV-D workers can initiate a review of court
orders themselves. When IV-D workers, taking an action on a case or reviewing their
workload, see an indication that the court order may be out of line with the noncustodial
parent’s earnings, they can begin a review of the case to see if the court order is still in line
with Oregon child support guidelines. The IV-D workers may also begin a review when they
receive on-line “new hire” information on the noncustodial parent. The computer system’s
linkage to the State wage reporting system provides another way to assist IV-D workers in
identifying cases suitable for review. A display in the upper right corner of the IV-D worker’s

                                       )))))))))))
                                             25
screen shows the most recent quarter’s earnings posted for the noncustodial parent on the case
on which they are working.

Other State workers may also identify court orders that should be reviewed. The TANF
agency, the SED accounting department, SED enforcement workers, managers, State
attorneys and others can “pend” cases to the IV-D worker through the computer system. The
IV-D workers must take appropriate action on these cases to remove the pend. The system
notifies the IV-D supervisors simultaneously of any new pends to the IV-D workers’ caseloads
and allows them to track the progress on these cases. These outside sources can also phone
the IV-D worker to call attention to situations that might call for a review of the court order.

In a typical review, a IV-D worker uses a variety of methods to verify the noncustodial
parent’s earnings, eligibility and address. A IV-D worker uses the State system to gather wage
reporting and new hire data, look at TANF records, check for other open cases to ensure all
the noncustodial parent’s children are accounted for, and see if the noncustodial parent
receives other cash assistance or food stamps or applied for other jobs, licenses or day care.
They also contact the noncustodial parent’s employer to make sure all wage and medical
insurance information is current. When the noncustodial parent is self-employed, the IV-D
worker sends an administrative subpoena to obtain similar data.

The IV-D worker calculates the appropriate court order using a modification worksheet.
Oregon reduces judicial involvement on its modification cases by sending both parties the
administrative motion outlining the intended new monthly child support amount along with the
worksheet showing how it was derived. This motion, sent by certified mail, tells them if they
do not object within 30 days, the proposed order will become final. If they object in writing or
in person, a hearing date is set and the hearings officer will decide the support amount. If still
dissatisfied they can appeal to the circuit court.

From start to finish, non-contested cases in Oregon are adjusted in 1 to 4 months, depending
on jurisdiction. Administrative cases where no hearing is involved take 31 days. A IV-D
manager estimated that cases in the judicial system can take as long as 6 months. He said the
lengthy completion times are due to delays in serving parties with court subpoenas and notices.

Most IV-D workers routinely propose including medical support in an adjusted court order if it
was not included in the original support order. According to SED, beginning the court order
review process automatically begins the process to add medical insurance to the order if not
already included. In all cases, medical insurance will be pursued and included even if the
review indicates no change in the support amount is warranted.

Unique Feature of Oregon’s Review and Adjustment Process

The SED recently conducted training for TANF workers to demonstrate how and when they
should pend cases to the IV-D workers and to encourage its use. The statewide training
explained how to read the IV-D information on their computer screens, what information the

                                       )))))))))))
                                             26
TANF workers have that is essential for IV-D workers, and how to notify IV-D of this
information by computer.

The ability to quickly alert IV-D workers of important case information is invaluable to the
review and adjustment process for several reasons. The TANF workers can report changes
like a new address for the noncustodial parent, or a new employer or higher wages for the
noncustodial parent. Under TANF, recipients are likely to contact their TANF caseworker to
discuss changes or problems in their employment, Medicaid, child care or transportation. The
TANF caseworker is likely to view that client’s file on their computer screen each time they
speak to the client or work on the case. The TANF workers have numerous opportunities to
see many important changes that could affect IV-D cases - changes that might never be
reported to, or noticed by IV-D workers unless they happen to be reviewing that case.
(Custodial parents on welfare are less likely to request a review of the court order since child
support payments on these cases are assigned to the State.)

Additional reviews and adjustments of court orders generated by the IV-D and TANF agency
computer linkage provide important benefits to welfare clients. If child support orders can be
increased enough through review and adjustment of the court order, some clients may not
require TANF benefits. Additionally, for those TANF clients involved in the transition from
welfare to work, an increase in child support payments assists in their ability to survive without
depending on cash assistance programs. Finally, for those who will be leaving the TANF rolls
without employment because of TANF time limits, increased child support payments may
represent an important part of the safety net they may have to rely on in the absence of Federal
and State cash assistance programs.




                                       )))))))))))
                                             27
                                   VERMONT

The Office of Child Support of the Vermont Agency of Human Services operates Vermont’s
child support enforcement program Statewide through five regional offices. As of December
31, 1997, Vermont’s IV-D caseload was 14,870, more than three-fourths of them, or 11,309,
public assistance cases. Vermont reviewed 507 cases in 1997. Seventy-four of the reviewed
cases were adjusted upward and 15 cases were adjusted downward. The average upward
adjustment was $152.48 and the average downward adjustment was $145.75. Medical support
was attached in 27 of the reviewed cases.

Vermont is continuing to review all public assistance cases every 3 years. The computer
system selects cases for review based on the date the order was signed, using a 35 month
future flag. The State’s computer system runs a nightly check to identify cases meeting the 35
month review criteria. The system then generates review assignments to the appropriate
caseworker.

Parental Requests for Review

Parents learn of their right to request a review with the establishment of the initial order and
through mail notifications sent every 3 years. All requests from custodial parents are honored
whether or not it has been 3 years since the order was last reviewed. Respondents in the local
offices we visited provided varying statements as to whether they conduct reviews in response
to requests from noncustodial parents. According to a representative of the State policy staff,
the IV-D agency will honor requests for reviews from noncustodial parents but the agency
rarely receives them. Most noncustodial parents file for modifications directly in court rather
than pursue a review since downward adjustments are retroactive to the date the modification
is filed.

Review and Adjustment Process

When a review is opened, the automated system issues a notice of intent to review and a
financial affidavit form to both the custodial and noncustodial parent. The caseworker also
solicits wage and health coverage information from the noncustodial parent’s employer.

Caseworkers check for medical coverage availability on the employer form and the financial
affidavit requested of the parents. If medical support is available and the order meets the
threshold for adjustment, medical support is usually attached as part of the adjustment process.
Payment for medical coverage is factored into the support order amount. However, if the
order does not meet the threshold for adjustment, medical only adjustments are not pursued
unless the parent explicitly requests the attachment of medical support.

Caseworkers also have access to State employment and tax data through an automated

                                      )))))))))))
                                            28
interface. The caseworker enters all of the collected information onto the guidelines worksheet
on the computer which calculates the determination. The caseworker sends a letter to both
parents reporting the results of the review.

If the review indicates an increase in the order of 10 percent or more, the caseworker or office
attorney files the case with the local court. If the review indicates a decrease of 10 percent or
more, the noncustodial parent is given the option of filing for a downward modification
pro se. After referral to court, whether by the IV-D agency or the parents directly, all
modification cases are scheduled for a case manager conference. A court employee serves as
the case manager. A representative of the Office of Child Support and both parents attend the
case manager conference.

If a successful closure can be reached in the conference, the parties enter into a stipulation to
adjust the order. The order is adjusted following a judge’s signature. If agreement is not
reached in the conference, the case is heard in court before a magistrate. The review and
adjustment process, from the date the notice of intent to review is issued to the date of order
adjustment, takes 3 to 4 months.

Unique Features of Vermont’s Review and Adjustment Process

The Vermont IV-D agency is conducting a demonstration funded by the Federal Office of
Child Support Enforcement to test the application of COLAs to support orders and the use of
automation to review and adjust orders. Vermont is using simulation models to test these
methods of reviewing and adjusting orders. The demonstration is scheduled to be complete in
September 2000.

Vermont’s computer system monitors caseworker adherence to required time frames in the
review and adjustment process. All steps of the review and adjustment process are tracked in
the system. The system alerts the supervisor if a caseworker does not meet the time-frame
required on an event. The system alerts continue to travel through the managerial structure as
overdue dates on events are reached so all levels of management are aware of problems with
complying with deadlines.




                                       )))))))))))
                                             29
